                             Office of the Inspector General

September 14, 2000


William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Effectiveness of Internal Controls in the Modernized Enumeration System
(A-08-97-41003)


The attached final report presents the results of our audit. Our objectives were to
determine whether Social Security Administration personnel complied with existing
policies and procedures when (1) assigning original Social Security numbers to U.S. born
applicants age 18 and older and (2) resolving Enumeration Feedback Messages.
Additionally, we determined whether further controls should be implemented in these
processes.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report, please
call me or have your staff contact Steven L. Schaeffer, Assistant Inspector General for
Audit, at (410) 965-9700.




                                             James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



   EFFECTIVENESS OF INTERNAL
  CONTROLS IN THE MODERNIZED
      ENUMERATION SYSTEM


  September 2000   A-08-97-41003




AUDIT REPORT

                     EXECUTIVE SUMMARY


OBJECTIVE

The objectives of the audit were to determine whether Social Security Administration
(SSA) personnel complied with existing policies and procedures when (1) assigning
original Social Security numbers (SSN) to U.S. born applicants age 18 and older and (2)
resolving Enumeration Feedback Messages (EM). Additionally, we determined whether
further controls should be implemented in these processes.

BACKGROUND

Enumeration refers to SSA’s process for assigning SSNs and issuing original and

replacement SSN cards. SSA’s enumeration procedures have changed significantly since

the first card was issued in 1936. Originally, field offices (FO) issued SSN

cards and then sent the corresponding applications to SSA Headquarters in

Baltimore, Maryland, where SSN records were established. In 1982, SSA began a

systems modernization program to improve the Agency’s operations. Since 1984,

processing completed SSN applications has become almost fully automated.


SSA’s Program Operations Manual System (POMS) requires all applicants for original

SSNs to submit an application and provide acceptable documentary evidence of age,

identity, and citizenship or lawful alien status.1, 2 It also requires FO personnel to conduct

an in-person interview with all applicants for original SSNs who are age 18 and older and

to verify the existence of birth certificates with State Bureaus of Vital Statistics if they are

U.S. born. 3, 4 SSA also requires applicants for replacement SSN cards to submit an

application and provide, at a minimum, proof of identity.


When processing SSN applications, SSA requires FO personnel to review evidence that

each applicant presents and then enter the information into the Agency’s Modernized

Enumeration System (MES). Once entered, applicant information undergoes numerous

automated edits. For example, SSA programs compare an applicant’s name and date of

birth with existing SSN records to ensure that the Agency had not previously assigned the

individual a SSN. MES issues SSN cards in those


1
    POMS, section RM 00202.001A.

2
    POMS, section RM 00203.001A.

3
    POMS, sections RM 00202.055A. and RM 00203.001A.

4
    POMS, section RM 00202.055E.3.


                                                 i
cases where all edits are passed. When input data do not pass the edits, MES generates

EMs and electronically transmits these messages to the respective FOs for resolution.


SSA policy requires FO personnel to compare the information on the EMs and the SSN

applications and contact the applicants, when necessary, to obtain information needed to

resolve the issues. Based on available information, FO personnel then instruct MES to

either issue a SSN card or delete the application.5 Once the application is deleted, the

applicant may have to submit a new application and evidence to reapply for a SSN, if the

prior application is no longer available in the applicable SSA FO.


Since 1935, SSA has assigned approximately 405 million SSNs. During Fiscal

Year 1999, SSA issued about 16.6 million SSN cards, of which about 5.3 million pertained

to newly assigned SSNs. Of the newly assigned SSNs, 9,410 were for

U.S. born applicants age 18 and over.


To accomplish our objectives, we reviewed applicable laws, regulations, and SSA

procedures. Additionally, we interviewed SSA personnel in Baltimore, Maryland;

Brownsville, Texas; Chula Vista, California; and Chicago, Illinois. We also examined

84 applications for original SSNs that U.S. born applicants age 18 and over submitted to

determine whether FO personnel had complied with existing procedures. Finally, we

examined EMs generated on 100 randomly selected applications to determine whether FO

personnel effectively resolved underlying discrepancies. We conducted our audit field

work between March 1998 and July 1999.


RESULTS OF REVIEW

The three FOs we visited generally processed original SSN applications for U.S. born
applicants age 18 and over in accordance with established policies. However, our
examination of a sample of EMs revealed that SSA FOs did not always properly resolve
EMs or adequately document actions taken. Additionally, FO personnel did not always
obtain required supervisory authorization before approving SSN applications that
generated certain suspect EM codes.

FO PERSONNEL PROPERLY ASSIGNED ORIGINAL SSNs TO
U.S. BORN APPLICANTS AGE 18 AND OVER

SSA personnel at the 3 FOs we visited processed all of the 84 original SSN applications
submitted by U.S. born applicants age 18 and over in accordance with prescribed
procedures. Specifically, FO staff obtained required documentation of age, identity, and
citizenship status and verified birth certificates with the applicable

State Bureaus of Vital Statistics. Additionally, in accordance with SSA requirements,


5
    Chapter 303 of SSA’s Modernized System Operations Manual.


                                                   ii
supervisory personnel approved each of the applications. We commend these FOs for
their implementation of, and compliance with, the controls.

FO PERSONNEL DID NOT ALWAYS PROPERLY RESOLVE EMs OR
ADEQUATELY DOCUMENT ACTIONS TAKEN

Our review of EMs generated for 100 sample applications disclosed 15 instances in which
FO personnel did not resolve the EMs in accordance with SSA procedures. As a result,
SSA erroneously assigned new SSNs to two individuals and recorded incorrect places of
birth on two other applicants’ Numident master file records.6 SSA personnel improperly
deleted the remaining 11 SSN applications. Consequently, some applicants had to re-
apply for the SSN cards, and FO personnel duplicated previous efforts.

We were unable to determine whether EMs were properly resolved in 13 additional cases
because FO personnel did not document the basis for the actions taken. SSA procedures
do not require SSA staff to document the basis for resolving or deleting an EM.
Nevertheless, to ensure adequate information exists for proper supervisory control, we
believe SSA should consider requiring FOs to maintain documentation regarding the
resolution of EMs.

Finally, we noted two instances in which a Service Representative or a Claims
Representative cleared an EM, even though SSA policy requires clearance by an
Operations Supervisor or higher level personnel. A representative of SSA’s Office of
Systems Requirements could not explain why MES had accepted personal identification
numbers assigned to personnel below the Operations Supervisor level. The representative
stated that SSA personnel would need to perform validation tests to determine why these
instances occurred. As of June 2000, SSA had not conducted such tests.

CONCLUSIONS AND RECOMMENDATIONS

We commend SSA for the controls it has implemented in processing original SSN
applications for individuals age 18 and over. However, we believe FO staff should
exercise greater diligence in processing EMs, including adhering to established
procedures, to ensure that EMs are properly resolved. In addition, we believe SSA should
require FOs to document the basis of all resolution actions taken, regardless of whether a
card is subsequently issued. Finally, SSA should determine why MES did not reject the
Service Representatives’ and Claims Representatives’ second personal identification
numbers on EMs that required clearance by management level personnel.




6
 The Numident master file contains all relevant enumeration information (for example, name, date of birth,
and mother’s maiden name) for each individual number holder.


                                                     iii
We recommend that SSA:

�	 Reemphasize to all FO personnel the necessity of following established procedures
   when resolving EMs.

�	 Require FO management to perform periodic quality reviews of processed EMs and
   provide appropriate feedback and related training to FO personnel.

�	 Require FO personnel to document the basis of all resolution actions taken on EMs for
   an appropriate period of time to facilitate management review.

�	 Perform validation tests to determine why system edits implementing the second
   personal identification number requirement for certain EMs are not working properly.

AGENCY COMMENTS

In response to our draft report, SSA agreed with Recommendations 1 and 4. However, the
Agency did not agree to perform periodic quality reviews of processed EMs
(Recommendation 2) or to document the basis for all resolution actions taken on EMs
(Recommendation 3). SSA stated that most EMs require only routine review and decision
making by employees for reconciliation and clearance, and FO managers currently receive
and review listings of pending EMs that are coded suspect or fraudulent. SSA further
stated that implementing Recommendation 1 will focus attention on proper processing and
will enhance the resolution of EMs without additional processing and review requirements.

In its response, SSA provided technical comments that were considered and incorporated,
where appropriate in this final report. The full text of SSA’s comments is included as
Appendix B.

OIG RESPONSE

While we agree that reemphasizing the need for FO personnel to follow established
procedures may improve the quality of EM resolution actions taken, we continue to believe
periodic management reviews of quality are necessary. Even if most EMs require only
routine review and decision making by employees, as SSA states in its response, 15
percent of the EMs we reviewed were processed incorrectly. Of these errors, two resulted
in individuals receiving more than one SSN. Further, the listing SSA referred to of pending
EMs is for the primary purpose of expediting the clearance of outstanding EMs, not to allow
managers to review the appropriateness of EM resolutions. Although timely resolution is
important, we believe proper resolution takes precedent. As such, we reiterate our
position that managers should periodically review the quality of these transactions. To
facilitate these reviews, we continue to believe FO personnel should document the basis of
resolution actions taken. Accordingly, we encourage SSA to reconsider its position on
these two recommendations.


                                            iv
                            TABLE OF CONTENTS


                                                                                                                         Page

INTRODUCTION.................................................................................................................1


RESULTS OF REVIEW.....................................................................................................4


     FO PERSONNEL PROPERLY ASSIGNED ORIGINAL SSNs TO

     U.S. BORN APPLICANTS AGE 18 AND OVER............................................ 4


     FO PERSONNEL DID NOT ALWAYS PROPERLY RESOLVE EMs OR

     ADEQUATELY DOCUMENT ACTIONS TAKEN.......................................................4


     �         Improperly Resolved EMs .................................................................................4


     �         Inadequately Documented Actions...................................................................6


     �         Management Personnel Did Not Always Clear

               Certain EMs, As Required ...............................................................................6


CONCLUSIONS AND RECOMMENDATIONS.............................................................8


APPENDICES
APPENDIX A – Description of Enumeration Feedback Messages

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgements

APPENDIX D – SSA Organizational Chart

                          INTRODUCTION


OBJECTIVE

The objectives of the audit were to determine whether Social Security Administration
(SSA) personnel complied with existing policies and procedures when (1) assigning
original Social Security numbers (SSN) to U.S. born applicants age 18 and older and
(2) resolving Enumeration Feedback Messages (EM). Additionally, we determined
whether further controls should be implemented in these processes.

BACKGROUND

Enumeration refers to SSA’s process for assigning SSNs and issuing original and

replacement SSN cards. SSA’s enumeration procedures have changed significantly since

the first card was issued in 1936. Originally, field offices (FO) issued

SSN cards and then sent the corresponding applications to SSA Headquarters in

Baltimore, Maryland, where SSN records were established. In 1982, SSA undertook a

systems modernization program to improve operations. Since 1984, processing

completed SSN applications has become almost fully automated.


SSA requires all applicants for original SSNs to submit an application and provide

acceptable documentary evidence of age, identity and citizenship or lawful alien status.

Additionally, the Agency requires FO personnel to conduct an in-person interview with all

applicants for original SSNs who are age 18 and over and to verify the existence of birth

certificates with State Bureaus of Vital Statistics (BVS) if they are U.S. born. SSA also

requires applicants for replacement SSN cards to submit an application and provide, at a

minimum, proof of identity.


When processing SSN applications, FO personnel are required to review the evidence that

each applicant presents and then enter the information into SSA’s Modernized

Enumeration System (MES). Once entered, applicant information undergoes numerous

automated edits. For example, SSA programs compare an applicant’s name and date of

birth to existing SSN records to ensure the Agency had not previously assigned the

individual a SSN. MES issues SSN cards in those cases where all edits are passed.

When input data do not pass the edits, MES generates EMs and electronically transmits

them to the respective FOs for resolution.


SSA policy requires FO personnel to compare the information on the EMs and the SSN

applications and contact the applicants, where necessary, to obtain information needed

to resolve the issues. Based on available information, FO personnel then instruct MES





                                             1
to either issue a SSN card or delete the application. Once the application is deleted, the

applicant may have to submit a new application and evidence to reapply for a SSN, if the

prior application is no longer available at the applicable FO .


Since 1935, SSA has assigned approximately 405 million SSNs. During Fiscal

Year 1999, SSA issued about 16.6 million SSN cards, of which about 5.3 million pertained

to newly assigned SSNs. Of the newly assigned SSNs, 9,410 were for

U.S. born applicants age 18 and over.


SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed applicable laws, regulations, and SSA

procedures. In addition, we held discussions with SSA Headquarters personnel and made

site visits to SSA FOs in Brownsville, Texas; Chula Vista, California; and Chicago, Illinois.

We initially selected these three FOs in conjunction with a separate Office of Inspector

General (OIG) review in which we reviewed controls over the assignment of SSNs to aliens

not authorized to work. For simplicity purposes, we elected to use these FOs in this review

as well.


During our site visits, we interviewed FO personnel and discussed the practices they

followed in processing original SSN applications submitted by U.S. born applicants age 18

and over. We also examined 84 applications submitted by this category of applicants that

were awaiting shipment to Boyers, Pennsylvania.1 In addition, we examined Numident

master file records for each of the applications and verified the applicants’ births with

applicable State BVSs. Using information from SSA’s MES Transaction History File, we

also determined the personal identification numbers (PIN) of the individuals who

processed the applications and verified supervisory personnel had approved the

applications as required.


To evaluate SSA’s controls over processing EMs, we examined a random sample of 100

EMs and the associated applications. We selected the sample cases from a population of

24,163 EMs identified on the MES Transaction History File during the

6-month period ended March 31, 1998. 2 For purposes of our review, we selected

11 types of EMs (02, 04, and 13 through 21) for inclusion in our sample population.

However, the sample population only included nine types of EMs since there were no

resolution actions taken on EM types 14 and 18 during the selection period. A complete

description for each of these EM codes is contained in Appendix A. We chose these EMs

because we believe they define circumstances most suspect for error and abuse. In fact,

the Agency identified five of these categories as vulnerable to


1
 Applications processed during a given month are shipped to the storage facility in Boyers, Pennsylvania,
around the 15th of the following month.
2
 Our extract contained 27,594 reference numbers (applications). However, we reduced the sample
population to 24,163 because FO personnel had not resolved the EMs for 3,431 of the reference numbers as
of March 31, 1998.


                                                     2
erroneous SSN assignment pursuant to an audit recommendation contained in a
1993 audit report issued by the Department of Health and Human Services’ OIG.3

Our review of internal controls was limited to examining sample SSN applications and
EMs, observing existing practices, and talking with FO personnel. We performed our field
work at the FOs in Brownsville, Texas; Chula Vista, California; Chicago, Illinois; and SSA
Headquarters in Baltimore, Maryland, during the period March 1998 through July 1999.
We conducted our review in accordance with generally accepted government auditing
standards.




3
 Audit of the System of Internal Controls for the Modernized Enumeration System (A-13-90-00045),
April 1993.


                                                   3
                    RESULTS OF REVIEW


The three FOs we visited generally processed original SSN applications for U.S. born
applicants age 18 and over in accordance with established policies. However, our
examination of a sample of EMs revealed that SSA FOs did not always properly resolve
EMs or adequately document actions taken. Additionally, FO personnel did not always
obtain required supervisory authorization before approving SSN applications that
generated certain suspect EM codes.

FO PERSONNEL PROPERLY ASSIGNED ORIGINAL SSNs TO
U.S. BORN APPLICANTS AGE 18 AND OVER

SSA personnel at the 3 FOs we visited processed all of the 84 original SSN applications
submitted by U.S. born applicants age 18 and over in accordance with prescribed
procedures. Specifically, FO staff obtained required documentation of age, identity, and
citizenship status and verified the existence of birth certificates with the applicable State
BVSs. Additionally, in accordance with SSA requirements, supervisory personnel
approved each of the applications. We commend these FOs for their implementation of,
and compliance with, the controls.

FO PERSONNEL DID NOT ALWAYS PROPERLY RESOLVE EMs OR
ADEQUATELY DOCUMENT ACTIONS TAKEN

Our review of 100 EMs revealed that FO personnel did not always (1) properly resolve the
EMs, (2) adequately document resolution actions taken, and (3) obtain required
supervisory authorization before approving SSN applications that generated certain
suspect EM codes.

Improperly Resolved EMs

FO personnel did not properly resolve 15 (15 percent) of the 100 EMs we examined during
our review. Specifically, FO personnel incorrectly authorized the assignment of new SSNs
to two applicants who had only requested replacement cards for previously assigned
SSNs. In addition, FO personnel neglected to complete steps required to appropriately
resolve two other EMs. As a result, SSA’s Numident master file contains incorrect
information regarding these number holders. Furthermore, FO personnel deleted 11
applications rather than performing the steps necessary to resolve reported discrepancies.




                                               4
SSA personnel did not document nor could they recall the rationale for actions taken on
these EMs. Therefore, we were unable to determine whether the improper resolutions
resulted from error, inadequate training, or an insufficient amount of time and priority given
to this task. We believe, with a minimal amount of research, FO personnel could have
readily and correctly resolved these EMs.

For example, one applicant for a replacement card, who provided his prior SSN on the
application, listed his first name as “George.” The FO employee who input the identifying
data in MES keyed the year of birth as “1997.” Because SSA’s Numident master file
record for the provided SSN showed the number holder’s year of birth as “1977” and his
first name as “Jorge,” an EM was generated. Upon comparison, we noted the applicant’s
middle and last names, the parents’ names, and their places of birth were identical.
Nevertheless, rather than contacting the applicant to resolve the discrepancies, the FO
authorized the issuance of a new SSN. Therefore, this individual has two SSNs, which are
not cross-referenced on SSA’s records. This applicant re-applied and received a
replacement SSN card under his original SSN several months later. A similar instance
occurred with another EM in our sample; however, SSA personnel cross-referenced the
two SSNs for the second individual.

In two additional cases, EMs were generated as a result of discrepancies between the
places of birth recorded in the Modernized Claims System and the Numident master file.
The resolution actions FO personnel took resulted in incorrect places of birth being
recorded on the Numident file.

In 11 of the 15 cases, FO personnel improperly deleted the SSN applications related to
certain EMs. For example, in two cases, FO personnel mistakenly keyed a “Y” in the “Prior
SSN” field of the applicable MES screen. By simply comparing the hard copy application
to MES or performing a query of MES using the applicant’s name and date of birth, FO
personnel should have easily detected the keying errors. Instead, FO personnel deleted
the applications, and the individuals were required to reapply for their SSNs. In two other
cases, the applicants alleged having prior SSNs but failed to record the numbers on the
applications. Based on our queries of MES, we believe the applicants mistakenly
annotated they had another SSN. Although section 303-A-15 of SSA’s Modernized
System Operation Manual (MSOM) instructs personnel to assign a new SSN when the
applicant has submitted sufficient evidence of age and U.S. citizenship or lawful alien
status, FO personnel deleted the applications.

In another case where an application was deleted, MES generated an EM as a result of an
application for a replacement SSN card. The applicant’s Numident file record indicated
the individual was deceased. If FO personnel had queried the applicant’s Master
Beneficiary Record, they would have determined the death record should have been on his
father’s Numident record. Unfortunately, FO personnel deleted this individual’s SSN
application, and he never received a replacement SSN card.




                                              5
Inadequately Documented Actions

In 13 of the cases reviewed, FO personnel did not adequately document actions taken to
resolve the EMs. As a result, we were unable to determine whether FO personnel properly
resolved the EMs.

Section 303-A of MSOM instructs SSA personnel to complete and transmit the MES
Update Application screen to correct any errors initially made in typing applicant
information and to document any new evidence obtained. In addition, MSOM requires
SSA personnel to record on the paper application the nature of any new evidence obtained
and/or changes made on the Update Application screen. However, the policy does not
require SSA personnel to document the basis for deleting an EM or authorizing a new or
replacement card.

FO personnel resolved the 13 cases by authorizing new or replacement SSN cards for 6 of
the applications and deleting the remaining 7. We analyzed MES transaction history file
data for these EMs to identify information that would explain the resolution actions taken.
Additionally, we reviewed the SSN applications for 5 of the 13 cases; however, the
documents did not contain annotations that would explain how the EMs were resolved.
There were no SSN applications for four of the EMs because they were generated as a
result of the MES’ interface with SSA’s Modernized Claims System. We were unable to
obtain copies of the SSN applications for the remaining four EMs. Further, none of the
FOs that processed the 13 cases had any documentation available to support the actions
taken.

Based on the number of improperly resolved EMs detected in our sample, we believe SSA
should require FO managers to conduct periodic quality reviews of processed EMs.
However, such reviews will not be successful unless managers can review the rationale for
resolution decisions and actions. Consequently, we believe SSA should require FO
personnel to document the basis for their decisions regarding EMs and maintain this
documentation for a specified period.

Management Personnel Did Not Always Clear Certain EMs, As Required

In August 1997, SSA implemented system edits for five categories of EMs the Agency

deemed vulnerable to erroneous SSN assignment. The edits required these EMs to be

cleared with a second PIN belonging to an employee at the Operations Supervisor or

above level.


Although EM-13s and EM-16s were two of the five types of EMs for which edits had been

established, our review disclosed two instances in which an unauthorized individual

cleared these EMs. MES generates an EM-13 when an FO inputs an

application and MES locates an identical or similar SSN application that had been

previously submitted with suspect or fraudulent evidence. MES generates an EM-16 when

the SSN record for the applicant contains a death indicator.



                                             6
FO management-level personnel informed us that neither of the individuals involved in the
resolution of the two EMs would have been given the authority to clear these transactions.
A representative of SSA’s Office of Systems Requirements could not explain why MES
had accepted PINs from unauthorized individuals. He stated that the Agency would need
to conduct validation tests to identify the vulnerabilities in the system. Failure of the edits to
perform properly weakens internal controls within the enumeration process. Consequently,
SSA needs to determine why the edits failed and take appropriate action.




                                                7
  CONCLUSIONS AND RECOMMENDATIONS


We commend SSA for the controls it has implemented in processing original SSN
applications for U.S. born applicants age 18 and over. However, we believe FO staff
should exercise greater diligence in processing EMs, including adhering to established
procedures, to ensure that EMs are properly resolved. In addition, we believe SSA should
require FOs to document the basis of all resolution actions taken, regardless of whether a
card is subsequently issued. Finally, SSA should determine why MES did not reject
second PINs of a Service Representative and Claims Representative on EMs that require
clearance by management-level personnel.

We recommend that SSA:

1.	 Reemphasize to all FO personnel the necessity of following established procedures
    when resolving EMs.

2.	 Require FO management to perform periodic quality reviews of processed EMs and
    provide appropriate feedback and related training to FO personnel.

3.	 Require FO personnel to document the basis of all resolution actions taken on EMs for
    an appropriate period of time to facilitate management review.

4.	 Perform validation tests to determine why system edits implementing the second PIN
    requirement for certain EMs are not working properly.

AGENCY COMMENTS

In response to our draft report, SSA agreed with Recommendations 1 and 4. However, the
Agency did not agree to perform periodic quality reviews of processed EMs
(Recommendation 2) or to document the basis for all resolution actions taken on EMs
(Recommendation 3). SSA stated that most EMs require only routine review and decision
making by employees for reconciliation and clearance, and FO managers currently receive
and review listings of pending EMs that are coded suspect or fraudulent. SSA further
stated that implementing Recommendation 1 will focus attention on proper processing and
will enhance the resolution of EMs without additional processing and review requirements.

In its response, SSA provided technical comments that were considered and incorporated,
where appropriate in this final report. The full text of SSA’s comments is included as
Appendix B.



OIG RESPONSE

                                            8
While we agree that reemphasizing the need for FO personnel to follow established
procedures may improve the quality of EM resolution actions taken, we continue to believe
periodic management reviews of quality are necessary. Even if most EMs require only
routine review and decision making by employees, as SSA states in its response, 15
percent of the EMs we reviewed were processed incorrectly. Of these errors, two resulted
in individuals receiving more than one SSN. Further, the listing SSA referred to of pending
EMs is for the primary purpose of expediting the clearance of outstanding EMs, not to allow
managers to review the appropriateness of EM resolutions. Although timely resolution is
important, we believe proper resolution takes precedent. As such, we reiterate our
position that managers should periodically review the quality of these transactions. To
facilitate these reviews, we continue to believe FO personnel should document the basis of
resolution actions taken. Accordingly, we encourage SSA to reconsider its position on
these two recommendations.




                                            9
APPENDICES

                                                                               APPENDIX A



           DESCRIPTION OF ENUMERATION

               FEEDBACK MESSAGES

Enumeration Feedback Message (EM)-02: The Modernized Enumeration System
(MES) could not find and/or verify a previously assigned Social Security number (SSN) for
the applicant. MES could not match sufficient identifying data from the SSN application to
the Alpha-Index or the Numident master file.

EM-04: The alleged prior SSN was issued before 1973, and the original paper
application was lost or destroyed before Social Security Administration’s Office of Central
Operations established a complete Numident record.

EM-13: MES located an identical or similar SSN application submitted with
suspect/fraudulent evidence.

EM-14: An applicant alleged a prior SSN that was on the deported alien SSN file.

EM-15: The pending application shows the United States as place of birth and either U.S.
applicantship or lawful admission to the United States with work authorization, and the
latest Numident for the SSN shows the United States as place of birth and lawful admission
to the United States without work authorization.

EM-16: The SSN record for the applicant contains a death indicator.

EM-17: The SSN applicant listed the United States as place of birth on his/her current
SSN application, but a previous SSN application for the applicant listed (shown on the
latest Numident record) a foreign place of birth.

EM-18: MES identified death data and a special indicator 4 and/or 5 on the applicant’s
SSN record.

EM-19: MES identified death data and a special indicator 1 and/or 2 on the applicant’s
SSN record.

EM-20: MES identified a special indicator 4 and/or 5 (and no death data) on the
applicant’s SSN record.

EM-21: MES identified a special indicator 1 and/or 2 (and no death data) on the
applicant’s SSN record.
.
                       APPENDIX B


    AGENCY COMMENTS





           2

COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT
REPORT, "EFFECTIVENESS OF INTERNAL CONTROLS IN THE MODERNIZED
ENUMERATION SYSTEM" (A-08-97-41003)

Thank you for the opportunity to review this draft report.
Our comments on the report’s recommendation are provided
below.

Recommendation 1

Reemphasize to all field office (FO) personnel the necessity
of following established procedures when resolving Enumeration
Feedback Messages (EM).

Comment

We concur. We believe that all offices will benefit from a
reiteration of proper procedures and appropriate references.
The Office of Operations will issue a reminder to all Fos by
the end of August 2000. This reminder will advise them of the
need to follow appropriate procedures when resolving Ems and
will specifically discuss detection of keying errors and use
of queries in resolving the types of situations that OIG
identified in its review.

Recommendations 2 and 3

Require FO management to perform periodic quality reviews of
processed EMs and provide appropriate feedback and related
training to FO personnel.

Require FO personnel to document the basis of all resolution
actions taken on EMs for an appropriate period of time to
facilitate management review.


Comment

We disagree. Most EMs require only routine review and
decision making by employees for reconciliation and clearance,
and FO managers currently receive and review listings of
pending Ems that are coded suspect or fraudulent. We believe
that implementing Recommendation 1 will focus attention on
proper   processing and will enhance the resolution of Ems
without additional processing and review requirements.

Recommendation 4



                              B-2
Perform validation tests to determine why system edits

implementing the second PIN requirement for certain EMs are

not working properly.

Comment


We concur. While we were unable to recreate the condition in

an earlier validation attempt, the problem could be in the TOP

SECRET profile structure, either nationally or within a

particular field office, rather than the Modernized

Enumeration System's (MES) coding. We expect to utilize the

next MES validation (4.3), which should be released within the

next

6 months, to test the problem. If case specific information

is needed from OIG's workpapers to complete our validation, we

will work with OIG staff to obtain the information needed.





                              B-3
                                                         APPENDIX C



                OIG CONTACTS AND STAFF

                  ACKNOWLEDGEMENTS


OIG Contacts

  Gary A. Kramer, Director, Operational Audit Division
  (410) 965-9711

  Kimberly A. Byrd, Deputy Director, Enumeration
  (205) 801-1605

Acknowledgements

  William C. McMillan, Auditor-in-Charge


  Charles A. Lober, Senior Auditor


  Ellen L. Justice, Auditor


  Theresa A. Roberts, Auditor

                        APPENDIX D



SSA ORGANIZATIONAL CHART

